CERTIFICATE OF SERVICE
I hereby certify under penalty of perjury under the laws of the United States
of America that on 4th day of October 2019 I sent true and correct copies of the
foregoing APPLICATION FOR EXTENSION OF TIME TO FILE A PETITION
FOR WRIT OF CERTIORARI to all parties required to be served, to the counsel
for Banner Bank and by mail to the following:

Steven W. Call
Ray Quinney & Nebekker P.C.
P.O. Box 45385
Salt Lake City, UT 84145-0385
scall@rqn.corn
DATED this 4th day of October 2019.

Michael Lynn Robertson

RECEIVED
OCT 10 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

